No. 20-1652

SUPREME COURT OF THE UNITED STATES

Meghan Belaski et al.,

Petitioner(s)
vs.
Securities and Exchange Commission

Respondent
PROOF OF SERVICE
I, Meghan Christine Belaski, do swear or declare on this date, June 25, 2021, as
required by Supreme Court Rule 29, I have served the enclosed a Supplemental
Brief on each party to the above proceeding, or that party's counsel, and on every
other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:

'reniait

'ICAO Miacilidli

t

e

E

be .205419 —70410 4 TA-0 So Ira:gar 6-erteraf l1
ass%

Slot CP
Astti thn-c,be- 2o5-

rid:cc

filet v IV V
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 25, 2021

ht4-4-t

3/4aditsilL,
(Signature)

